December 15, 2010

GARY C. REBLIN
VICE PRESIDENT, SHIPPING SERVICES

JAMES P. COCHRANE
VICE PRESIDENT, PRODUCT VISIBILITY AND OPERATIONS PERFORMANCE

PRANAB M. SHAH
VICE PRESIDENT AND MANAGING DIRECTOR, GLOBAL BUSINESS

SUBJECT: Audit Report – Express Mail Guarantees
        (Report Number FF-AR-11-004)

This report presents the results of our audit of Express Mail® guarantees (Project
Number 10BG004FF000). The objective of our audit was to determine if it is prudent
business practice for the U.S. Postal Service to guarantee Express Mail Service to all
Zone Improvement Plan (ZIP) Codes and American territories. In addition, we
determined whether or not the Postal Service is monitoring Express Mail Corporate
Account (EMCA) negative balances and closing inactive accounts effectively. This self-
initiated audit addresses financial risk. See Appendix A for additional information about
this audit.

Express Mail is an expedited mail delivery service of the Postal Service that guarantees
mail delivery time. The Postal Accountability and Enhancement Act of 2006 (Postal Act
of 2006) classifies Express Mail as a competitive product and requires the Postal
Service to ensure that each competitive product covers its attributable costs.1 The
Postal Service charges Express Mail postage for each addressed mailpiece according
to its weight and zone, with on-time delivery guaranteed or the customer gets their
money back. During fiscal year (FY) 2009, the Postal Service delivered approximately
    million pieces of Express Mail, generating approximately            million in revenue,
and refunded         million for late deliveries.2 The Postal Service measures Express
Mail service performance by establishing a targeted percentage for on-time delivery.
The target for on-time Express Mail delivery was         percent for FY 2009 and
percent for FY 2010. The Postal Service allows mailers to establish and pay their
Express Mail postage through EMCAs.

1
 The direct and indirect costs attributable to products through reliably identified causal relationships.
2
 Through Q2, FY 2010 Express Mail revenue was approximately                 million from approximately      million pieces,
and refunds totaled      million for late deliveries.
Express Mail Guarantees                                                                                  FF-AR-11-004



Conclusion

Although the Postal Service came very close to meeting its overall goal of     percent
on-time Express Mail delivery in FY 2009,3 it did not meet the on-time delivery target for
             of over 40,000 ZIP Codes, including military installations and American
territories. Of the      million pieces of Express Mail sent from October 1, 2007
through March 31, 2010, the Postal Service did not meet the guaranteed delivery times
for approximately million pieces, resulting in potential monetary exposure of $80.6
million.4 The actual amount refunded for this period was          million.

Postal Service personnel did not examine the reasons for the late deliveries or make
adjustments to the network to achieve timely delivery or adjust the Express Mail
guarantees to what it can realistically achieve. Further, the Postal Service does not
have a system in place to track Express Mail refunds by originating or destination ZIP
Codes. Therefore, the Postal Service has been unable to determine whether they are
covering all their costs, including attributable costs, for a specific destination ZIP Code.




In addition, some districts were not monitoring and timely closing EMCA inactive
accounts. As of July 31, 2010, there were            EMCA accounts with balances totaling
      million. Of these accounts,            percent) were inactive with balances totaling
      million. Furthermore,        of these inactive accounts, with balances totaling
million, were inactive for over 2 years.

Late Express Mail Deliveries Not Determined or Addressed

In FY 2009, the Postal Service delivered approximately    million pieces of Express
Mail late and did not meet its targeted  percent on-time delivery for        of 40,404
delivery ZIP Codes.

      Express Mail destined to American territories and military ZIP Codes accounted
       for only about       late pieces; however, they had some of the highest rates
       of late deliveries.

      Express Mail deliveries to the 50 states accounted for over                               million late
       pieces.

Express Mail destined to American territories had some of the highest late delivery
rates.

3
  The Postal Service delivered over      million of      million pieces of Express Mail packages late in FY 2009
percent).
4
  The $80.6 million represents the total potential monetary exposure of         million minus the actual refunded
amount of         million. See Appendix C for details of the calculation.




                                                           2
Express Mail Guarantees                                                                                FF-AR-11-004




                                                                                                                 .
                                5
Of the approximately              Express Mail pieces destined to 214 military ZIP Codes,
                (or 72 percent) were late. Almost 75 percent of the late mail took at least
6 days to be delivered to a military post office, even though the Postal Service has
3-day guaranteed delivery for military Express Mail. Management believes the main
causes for the late delivery were transportation and scanning issues.6 The Postal
Service has recently formed a working group with the Military Postal Service Agency
(MPSA) to review the overall logistics of the military Express Mail network. They believe
significant improvements will be made over time; however, no deadline has been
established. In addition, the retail units are manually determining the 3-day guaranteed
delivery date because military service delivery commitments are not currently included
in the automated Service Delivery Calculator (SDC).7 Not having the automated SDC
could cause inaccuracies in the calculations of the guaranteed delivery times, putting
revenue at risk when this mail is not delivered on time. In addition, although we did not
analyze the timeliness of Express Mail delivery from military ZIP Codes to U.S.
destinations, it is especially important for Express Mail delivery between the 50 states
and military ZIP Codes be timely in order to ensure that military personnel absentee
ballots arrive in time to be counted.8

Express Mail destined to certain ZIP Codes in the 50 states accounted for most of the
potential monetary exposure identified. In FY 2009, the Postal Service late delivered
      million Express Mail pieces to the 50 states. Management recognizes there are
operational and logistical issues with late delivery to certain ZIP Codes in the 50 states
as well as in the American territories and military posts, but they have not established a
process to determine the reasons behind and solutions to late delivery because (1) the
total refunds claimed for late deliveries have been low compared to the total revenue
and (2) their priority was to implement the SDC to more accurately calculate the delivery
time.9




5
  In FY 2009, almost 58 percent of the mailpieces destined to military ZIP Codes were not scanned and have no
record of delivery. The         mailpieces were scanned into the system.
6
  The Postal Service scans the mailpiece into the system to track the acceptance and delivery time.
7
  In March 2010, the Postal Service implemented the SDC, which automatically calculates the guaranteed delivery
date and time for Express Mail articles and the expected delivery date for all other domestic mail classes (excluding
Army/Air Force Post Offices (APO)/Fleet Post Officers (FPO). Retail outlets that use Point-of-Service (POS) are just
one of the many outlets that use the SDC to determine guaranteed or expected delivery date commitments. The SDC
is also used by the Automated Postal Center, Click-N-Ship® and Product Tracking System.
8
  The Postal Service and the MPSA regularly join forces to expedite delivery of absentee ballots to overseas military
personnel. For example, military personnel in APO/FPO locations are able to return absentee ballots via Express Mail
using a special label with the postage being paid by the MPSA.
9
  We did not evaluate whether implementation of the SDC allows the Postal Service to more accurately calculate
delivery time but believe consolidation into one source should help in improving delivery time. In the past, different
systems had different logics to calculate the delivery time.




                                                          3
Express Mail Guarantees                                                                               FF-AR-11-004



For FY 2009, the Postal Service had potential monetary exposure of          million for
approximately       million pieces of late delivered Express Mail packages.10 Overall, the
Postal Service did not meet the guaranteed delivery times for approximately million of
       million Express Mail pieces for the period October 1, 2007, through March 31,
2010, resulting in potential monetary exposure of $80.6 million. See Appendix B for our
detailed analysis of this topic and Appendix C for details of the other impact.

We recommend the vice president, Shipping Services, in coordination with the vice
president, Product Visibility and Operations Performance; and vice president and
managing director, Global Business:

1. Evaluate the reasons for late deliveries for American territories and, if it is not
   possible to significantly improve on-time delivery, determine if they should adjust or
   eliminate guarantees.

2. Review military Express Mail and logistics to evaluate reasons for the delays in
   delivering mail to military personnel and make necessary changes to improve
   service performance.

3. Implement actions to include military ZIP Codes in the Service Delivery Calculator.
          
4. Identify reasons for late Express Mail deliveries to ZIP Codes in the 50 states with
   the highest volumes of late deliveries and either implement actions to reduce late
   delivery or determine if they should adjust or eliminate delivery guarantee time.

Express Mail Refunds Not Tracked

While the refunds as a percentage of total revenue have been low,11 the Postal Service
currently has no system in place to track Express Mail refunds by originating or
destination ZIP Codes. Management recognizes it is important to track refunds by origin
and destination to accurately assess risk and to identify necessary changes in service.
In September 2009, the Postal Service started a project and began capturing the refund
information in some offices.12 However, management has delayed completion of the
project until FY 2011 due to other priorities and could not provide an exact timeframe for
restarting this project. Management still needs to capture this information for the
remaining offices and to build the reporting capability into the Enterprise Data
Warehouse (EDW). Until this information is captured and the reporting capability is built,
the Postal Service is unable to determine what origin or destination sites are
contributing to the refunds.

10
   The      million represents the FY 2009 total potential monetary exposure of           million minus the actual
refunded amount of        million.
11
   In FY 2009, the Postal Service refunded approximately        million for late deliveries out of        million in
revenue received (or      percent).
12
   Integrated Retail Terminal and POS offices began capturing refund information in September 2009 and November
2009, respectively.




                                                         4
Express Mail Guarantees                                                        FF-AR-11-004



We recommend the vice president, Shipping Services:

5. Establish a timeframe for and develop a process to analyze Express Mail refunds by
   origin and destination to evaluate risk and identify necessary changes in service in
   order to make better business decisions for guarantees.

Inactive EMCAs Not Monitored

Postal Service districts are not always monitoring and closing inactive EMCA accounts.
As of July 31, 2010, there were         inactive accounts totaling approximately $1.9
million. Furthermore,        of these accounts, with balances totaling      million, have
been inactive for over 2 years. While there were inactive accounts in all eight Postal
Service areas and in 73 of 74 districts, 44 percent of the inactive account balances are
in the                        Areas.

The Postal Service requires districts to close an account that has been inactive for 1
year.13 Four districts we contacted did not have a process in place to monitor inactive
accounts. Management in one district stated they did not monitor inactive accounts
because other duties took priority. Management in the remaining three districts stated
they were unaware of the procedures because they transferred the responsibility to
monitor EMCA accounts from the district’s Expedited Service Offices to the district’s
Mailing Requirements group in 2008. When the Postal Service does not comply with
financial reporting controls, they are at an increased risk of fraud and lost revenue.

See Appendix B for our detailed analysis of this topic and Appendix C for details of the
$1.9 million monetary impact.

We recommend the vice president, Shipping Services:

6. Reiterate to area vice presidents and appropriate district personnel their
   responsibility to monitor and close inactive Express Mail Corporate Accounts when
   appropriate.

7. Communicate current Express Mail Corporate Account inactive account information
   to area vice presidents for action to be taken by appropriate district personnel.

Management’s Comments

Management generally agreed with all findings and recommendations. For
recommendations 1 and 4, management agreed that by March 31, 2011, the Operations
Performance group will perform analysis to identify the reasons for late deliveries of
Express Mail to the American Territories and the 50 states with the highest volumes of


13
     Domestic Mail Manual (DMM), Section 414.2.6.b, page 534.




                                                         5
Express Mail Guarantees                                                          FF-AR-11-004



late deliveries. Based on that analysis, by April 30, 2011, the Express Mail Program
Office will determine whether to adjust or eliminate guarantees.

For recommendation 2, management agreed to review all aspects of the Express Mail
Military Service (EMMS) product and the logistics supporting this product. They noted
that they have already formed a working group made up of Postal Service Headquarters
officials and the Military Postal Service Agency to evaluate and address the reasons for
the delays and they intend to take the necessary actions to improve overall service
performance by June 30, 2011.

For recommendation 3, management agreed to explore actions to include military ZIP
codes in the Service Delivery Calculator and will evaluate the financial resources
needed to determine the feasibility of this recommendation. By March 30, 2011, based
on resources and funding needed, management will determine the best way to proceed.

For recommendation 5, management stated they started an Express Mail Refunds
Visibility Project last year to capture the Express Mail refunds at retail sites. This data
capture from non-Point-of-Service sites and the reporting capability should be ready by
June 30, 2011.

For recommendations 6 and 7, management generally agreed to have area and district
personnel monitor and close inactive accounts when appropriate. While management
agreed with the inactive account balance of $1.9 million, they did not agree that it is
“recoverable revenue” as they are trust accounts. They believe that instead of closing
the accounts and refunding customers or transferring the balance to miscellaneous
revenue, it is more important to have a plan in place to re-activate inactive account
holders. Management agreed to develop a plan by March 30, 2011 to reintroduce the
benefits of the Express Mail Accounts to encourage customers to ship with the Postal
Service. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. For recommendation 6 and
7, we agree that having a plan in place to reactivate inactive account holders versus just
closing the inactive accounts would be beneficial. However, if inactive account holders
do not plan to mail with the Postal Service, the accounting policy is to close them after
1 year of inactivity. Regarding the categorization of the monetary impact, OIG policy is
to consider the balances in inactive trust accounts as recoverable revenue. After the
Postal Service notifies the inactive account holders that the accounts will be closed and
a customer has not requested a refund within 10 days, the balances are transferred to
miscellaneous revenue.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when




                                             6
Express Mail Guarantees                                                      FF-AR-11-004



corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda J. Libician-Welch,
director, Field Financial-West, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Vincent H. DeVito, Jr
    Dean J. Granholm
    Jordan M. Small
    Corporate Audit and Response Management




                                           7
Express Mail Guarantees                                                          FF-AR-11-004



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Express Mail is an expedited mail delivery service of the Postal Service that guarantees
mail delivery time. Express Mail service guarantees delivery or the Postal Service will
refund customers their money. Postage is charged for each addressed piece according
to its weight and zone. The basic types of Express Mail service are next-day service,
second-day service, military service, custom designed, and open and distribute.
Express Mail service is also available to most American territories.

Express Mail Military Service (EMMS) is available between the U.S. and designated
Army/Air Force Post Offices (APO) and Fleet Post Offices (FPO). This service provides
Department of Defense personnel stationed overseas and others entitled to APO and
FPO mailing privileges with an expedited delivery service to or from the U.S. The Postal
Act of 2006 classifies Express Mail as a competitive product and requires the Postal
Service to ensure that each competitive product covers its attributable costs.

The Postal Service allows customers to pay Express Mail postage through EMCA.
EMCA account holders establish and maintain their accounts by:

      Using a personal or business credit card.

      Authorizing the Postal Service to originate an Automated Clearing House (ACH)
       debit from a specified bank account.

      Participating in the Centralized Account Processing System (CAPS) debit only if
       combined with other PostalOne! accounts such as permit imprint, Periodicals,
       and Business Reply Mail.

      Depositing cash and checks in local trust accounts (for existing trust account
       holders only) and maintaining a minimum balance in the account equal to an
       average week's postage and fees, or $100, whichever is higher.

Mailers can charge Express Mail shipments to one account and deposit shipments paid
through an EMCA at any Express Mail collection box or at any post office, or with a
Postal Service letter carrier. As of July 31, 2010, there were    EMCAs with a total
balance of approximately         million.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our self-initiated audit was to determine if it is prudent business practice
for the Postal Service to guarantee Express Mail service to all ZIP Codes and American
territories. This project focused on Express Mail on-time delivery performance and the
monetary exposure created when the Postal Service did not deliver Express Mail on




                                              8
Express Mail Guarantees                                                      FF-AR-11-004



time. In addition, during our audit an issue surfaced with EMCA inactive and negative
accounts. We evaluated and analyzed EMCA accounts nationwide to determine if the
Postal Service is monitoring EMCA negative balances and closing inactive accounts
effectively.

To accomplish our objective, we determined whether the Postal Service had a process
in place to ensure Express Mail guarantees are reasonable for all ZIP Codes. We
evaluated the Express Mail on-time performance data from the Product Performance
Reporting in the EDW for FY 2008 through Q2, FY 2010 by destination ZIP Codes.

We conducted interviews with Postal Service Headquarters and district personnel
regarding Express Mail guarantees and the EMCA monitoring process. In addition, we
reviewed Express Mail policies and procedures and other documents, including the
Postal Act of 2006.

We conducted this performance audit from April through December 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on November 4, 2010, and
included their comments where appropriate.

We verified the accuracy of the data by confirming our analysis and results with
management and other data sources. In addition, the OIG tests the financial information
in EDW and Revenue Pieces, and Weight as part of its annual financial statement
audits. We determined the information to be sufficiently reliable for our audit.




                                           9
    Express Mail Guarantees                                                     FF-AR-11-004



    PRIOR AUDIT COVERAGE

                  Report      Final Report   Monetary
Report Title                                                       Report Results
                 Number           Date        Impact
Express Mail   NO-AR-04-008     5/5/2004            $0    The Postal Service did not meet
Operations                                                established service standards for
                                                          over 99 percent of Express Mail
                                                          packages destined to Guam and 87
                                                          percent destined to American
                                                          Samoa. Management generally
                                                          agreed with the recommendations
                                                          but believed providing dedicated air
                                                          service for Express Mail packages to
                                                          American Samoa would be
                                                          cost-prohibitive and, therefore, not
                                                          feasible.
Overdrawn      DR-AR-06-007     8/9/2006      $319,014   The Postal Service did not collect
Express Mail                                             revenue from 179 EMCAs with
Corporate                                                overdrawn balances and did not close
Accounts                                                 accounts with negative balances.
                                                         Management agreed with the
                                                         recommendations and stated they
                                                         would take corrective action to
                                                         convert the EMCAs to ACH or credit
                                                         card accounts. However,
                                                         management did not convert EMCA
                                                         trust accounts to ACH or credit card
                                                         accounts because they stated it is not
                                                         mandatory and customers were not
                                                         responsive to the idea.
Review of      1743339-MF      July 2009           $0    The U.S. Postal Inspection Service
the Postal                                               identified over 50 percent of EMCA
Service’s                                                accounts as inactive and
Express Mail                                             recommended eliminating EMCA trust
Corporate                                                accounts as a payment option and
Account                                                  requiring EMCA customers to pay via
System                                                   ACH, CAPS, and credit card
                                                         accounts. Management was not
                                                         required and chose not to respond to
                                                         the report.




                                             10
Express Mail Guarantees                                                               FF-AR-11-004



                             APPENDIX B: DETAILED ANALYSIS

Late Express Mail Deliveries Not Determined or Addressed

In FY 2009, the Postal Service delivered approximately       million pieces of Express
Mail late. The percentage of late deliveries for Express Mail destined to military ZIP
Codes, American territories, and the 50 states varied significantly as shown in Table 1.

             Table 1: FY 2009 Express Mail Late Deliveries by Destination
                                             FY 2009 Express Mail Pieces
              Destination                                    Number      Percentage
                                              Percentage
                                     Total                   Delivered    Delivered
                                                of Total
                                                               Late         Late
          Military
          American Territories
          50 States
          Total                                    100.0%
         Source: Product Performance Reporting in EDW

In addition, the Postal Service did not meet its target of percent on-time delivery for
        of 40,404 delivery ZIP Codes as shown in Table 2.

                             Table 2: FY 2009 Delivery ZIP Codes
                               FY 2009 Number of Delivery ZIP Codes
                                                        Number of     Percentage of
                     Percentage Delivered On-Time
                                                         ZIP Codes     ZIP Codes




             Total All ZIP Codes                            40,404          100.0%
             Total ZIP Codes not meeting       target
            Source: Product Performance Reporting in EDW

Express Mail Destined to American Territories

As shown in Table 1, Express Mail destined to American territories was late twice as
often as Express Mail destined to the 50 states. Furthermore, late deliveries to
American territories varied significantly by destination, as shown in Table 3.




                                                11
Express Mail Guarantees                                                              FF-AR-11-004




           Table 3: FY 2009 Express Mail Late Deliveries to American Territories
                                                    FY 2009 Express Mail Pieces
                            Destination                      Number     Percentage
                                                   Total    Delivered    Delivered
                                                              Late          Late
                        American Samoa
                        Palau
                        Mariana Islands
                        Guam
                        Puerto Rico
                        Virgin Islands
                        Total
                       Source: Product Performance Reporting in EDW

Express Mail destined to American Samoa was late             percent of the time. We
                                           14
identified this same issue in a 2004 report for late Express Mail deliveries to American
Samoa and Guam; however, management concluded that having dedicated flights was
cost prohibitive, and the OIG concurred with management.

While the Postal Service offers guaranteed 2-day delivery to the American territories,




Management has not determined the causes but believes one of the reasons they are
not meeting guarantees for Pacific American Territories is the limited number of
commercial flights. There are only three flights a week to most of the American
territories in the Pacific.



14
     Express Mail Operations (Report Number NO-AR-04-008, dated May 5, 2004).
15
     DMM Section 113.4.3.1, page 46.




                                                       12
Express Mail Guarantees                                                                             FF-AR-11-004



Express Mail Destined to Military ZIP Codes

As described in Table 1, 72 percent of the Express Mail pieces destined to 214 military
ZIP Codes were late.16 Twenty ZIP Codes accounted for 57 percent of the total late
Express Mail pieces destined to military ZIP Codes. See Table 4.

                 Table 4: Top 20 ZIP Codes with Highest Number of Pieces
                         of Late Express Mail to Military ZIP Codes
                                                              FY 2009 Express Mail Pieces to Military
                                                                         Number        Percentage
                                                  ZIP
                    Destination                                Total     Delivered      Delivered
                                                 Codes
                                                                           Late            Late
               17
                                                                                              98.4%
                                                                                                  91.7%
                                                                                                  89.3%
                                                                                                  89.2%
                                                                                                  86.5%
               18
                                                                                                  86.5%
                                                                                                  85.8%
                                                                                                  83.1%
                                                                                                  82.7%
                                                                                                  82.4%
                                                                                                  80.4%
                                                                                                  79.5%
                                                                                                  78.1%
                                                                                                  77.2%
                                                                                                  73.2%
                                                                                                  70.4%
                                                                                                  68.3%
                                                                                                  66.0%
                                                                                                  49.0%
               19
                                                                                                  17.7%
         Total Top 20                                                                             72.4%
         Total All Military ZIP Codes                                                             71.7%
        Percentage of Top 20                                                   57.3%
        Source: Product Performance Reporting in EDW




16
   In FY 2009, almost 58 percent of mailpieces destined to military ZIP Codes were not scanned and have no records
of delivery.
17
18
19




                                                         13
Express Mail Guarantees                                                                              FF-AR-11-004



While the Postal Service guarantees 3-day delivery for military Express Mail,20 75
percent of the late mail took at least 6 days to be delivered to a military post office.

Management believes the main causes for the late delivery were transportation and
scanning issues. They stated that military mail must be delivered in 1 day to certain
stops along the way to reach the military destination on time. In addition, the military has
to improve coordinating flight schedules to pick up the mail when it arrives. Sometimes
military personnel leave before the flight arrives, resulting in late delivery times.
Furthermore, management stated military personnel are not timely scanning the
Express Mail piece when it is delivered to the military post office. The Postal Service
has recently formed a working group with the MPSA to review the overall logistics of the
military Express Mail network. Management believes significant improvements will be
made over time; however, they have not established a deadline for completion of the
working group or milestones for improvements.

Another reason management believes deliveries to military destinations are late is
because the retail units have to use a manual EMMS Directory Guide to determine the
3-day guaranteed delivery date. Military service delivery commitments are not currently
included in the SDC. Using a manual process could cause errors when calculating the
guaranteed delivery times. For example, the 3-day guarantee should add weekends and
holidays. A retail clerk might mark “3-day guaranteed delivery” on the Express Mail label
and forget to add the 2 additional days for the weekend and possibly the holiday. The
SDC automatically calculates the guaranteed time for all other Express Mail, including
weekend and holiday when warranted.

In addition, although we did not analyze the timeliness of Express Mail delivery from
military ZIP Codes to U.S. destinations, it is especially important for Express Mail
delivery between the 50 states and military ZIP Codes be timely in order to ensure that
military personnel absentee ballots arrive in time to be counted.

Express Mail Destined to ZIP Codes in the 50 States

While, overall, Express Mail destined to the 50 states was late just percent of the time,
it accounted for 97 percent of the    million late deliveries and most of the potential
monetary exposure. Fifty percent of the      million Express Mail pieces delivered late
were destined to        of the 39,980 ZIP Codes in the 50 states. Table 5 shows the top
20 ZIP Codes with the highest number of late delivered Express Mail pieces.




20
     Express Mail Military Service (EMMS) Directory, dated July 7, 2010; and DMM Section 703.2.6.3, page 1192.




                                                          14
Express Mail Guarantees                                                                          FF-AR-11-004




                   Table 5: Top 20 ZIP Codes with Highest Number of Pieces
                              of Late Express Mail to the 50 States
                                                       FY 2009 Express Mail Pieces
                                  ZIP
              Destination
                                 Code                           Number                Percentage
                                              Total
                                                             Delivered Late          Delivered Late




        Source: Product Performance Reporting in EDW




Management recognizes there are operational and logistical issues with late delivery to
certain ZIP Codes in the 50 states, as well as in the American territories, but they have
not set up a process to determine and resolve the reasons for late delivery because the
total refunds claimed have been low in comparison to the total revenue. In addition, they
stated their priority was to implement an automated tool to more accurately calculate the

21
     Express Mail to ZIP Code               represents 1 percent of the late delivered pieces to the 50 states.




                                                  15
Express Mail Guarantees                                                                           FF-AR-11-004



delivery time. This automated tool, the SDC, was implemented in March 2010. The tool
calculates the guaranteed delivery date and time for Express Mail articles and the
expected delivery date for all other domestic mail classes except APO/FPO. Retail
outlets that use POS are just one of the many outlets that use the SDC to determine
guaranteed or expected delivery date commitments.

For FY 2009, the Postal Service had potential monetary exposure of          million for
approximately      million pieces of late delivered Express Mail packages.22 For the
period October 1, 2007 through March 31, 2010, potential monetary exposure was
$80.6 million for million late delivered pieces out of a total of     million Express
Mail delivered pieces. See Appendix C for details of the other impact.

Inactive EMCAs Not Monitored

Postal Service districts are not always monitoring and closing inactive accounts.23 As of
July 31, 2010, there were           EMCA accounts with balances. Of those,
accounts (or     percent), totaling $1.9 million, were inactive. While there were inactive
accounts in all eight Postal Service areas and in 73 of 74 districts, two areas have
significantly more inactive accounts than others. The Northeast and Pacific Areas are
responsible for 44 percent of the inactive account balances as shown in Chart A.

     Chart A: Percentage of Inactive EMCA Balances by Area as of July 31, 201024




       Source: Electronic Marketing and Reporting System (EMRS)




22
   The     million represents the FY 2009 total potential monetary exposure of  million minus the actual
refunded amount of       million.
23
   We did not discuss EMCA negative accounts because the Postal Service has made significant progress in
reducing these.
24
   These accounts were inactive for 1 year or more.




                                                      16
 Express Mail Guarantees                                                                FF-AR-11-004



 Table 6 shows the top 10 districts with the highest EMCA inactive accounts as of
 July 31, 2010. See Appendix D for all districts.

 Table 6: Top 10 Districts with Highest EMCA Inactive Accounts as of July 31, 2010
                                         Number
                                                     Percentage              Inactive
                               Total        of                      Total                Percentage
    Area          District                           of Inactive             Account
                             Accounts    Inactive                  Balance               of Balance
                                                      Accounts               Balance
                                        Accounts
                                                    38.4%                               34.8%
                                                    29.7%                               15.8%
                                                    43.9%                               31.3%
                                                    49.4%                               44.7%
                                                    42.2%                               21.9%
                                                    46.8%                               27.5%
                                                    41.5%                               27.4%
                                                    43.0%                               43.6%
                                                    22.6%                               16.5%
                                                    43.5%                               37.4%
Source: EMRS

 For example, the                                   had the highest balance ($108,648 with
 734 inactive accounts) and the                         ranked second (totaling $89,094 with
 444 inactive accounts).

 In addition, almost 67 percent of inactive accounts have been inactive for over 2 years
 as shown in Table 7.




                                               17
Express Mail Guarantees                                                           FF-AR-11-004



      Table 7: Aging of EMCA Inactive Accounts by Number of Years Inactive

                            Number of
            Number of                   Percentage                    Percentage of
                             Inactive                   Balance
           Years Inactive               of Accounts                     Balances
                            Accounts
                 1 3,169
                 2 1,821
                 3 1,234
                 4 900
                 5 622
                 6 434
                 7 344
                 8 252
                 9 213
                 10 160
                 11 119
                 12 101
                 13 57
                 14 42
                 15 26
                 16 18
                 17 11
                 18 12
                 19 1
                 20 1
               Tot                          100.0%    $1,898,136.71         100.0%
           Inactive over
              2 Years                         66.8%   $1,195,162.56          63.0%
          Source: EMRS




                                             18
Express Mail Guarantees                                                                                  FF-AR-11-004



                        APPENDIX C: MONETARY AND OTHER IMPACTS

                                               Monetary Impact

           Finding                                  Impact Category                              Amount
     EMCA Inactive                                                           25                                  26
                                        Recoverable Revenue Loss                  $1,898,137
     Accounts

                                                  Other Impact

             Finding                               Impact Category                              Amount
      Late Express Mail
                                        Revenue at Risk27 $80,589,258
      Deliveries

                                        Calculation of Other Impact

                                    A                B                C                 D                 E
                                                                                                      Potential
                                                                  Refund
                             Express Mail        Average                                              Monetary
                                                                 Liability          Actual
                             Packages Not        Postage                                              Exposure
                                                                (column A           Amount
                             Delivered on          per                                               (column C
                                                               multiplied by       Refunded
                                 Time            Mailpiece                                             minus
                                                                column B)
                                                                                                     column D)
      FY2010 (Q1-Q2)
           FY 2009
           FY 2008
            Total                                                                                $80,58       9,258




25
   Revenue that can be collected for goods delivered or services rendered.
26
   We recognize that the amount cannot be transferred to the revenue account until the customers reply or 10 days
notice has expired.
27
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).




                                                          19
   Express Mail Guarantees                                                                                  FF-AR-11-004



                       APPENDIX D: EMCA INACTIVE ACCOUNTS BY DISTRICT

                             EMCA Inactive Accounts by District Ranked by
                          Highest Inactive Account Balance as of July 31, 2010
                                                      Number of      Percentage                        Inactive
                                           Total                                       Total                           Percentage
Area                 District                          Inactive      of Inactive                       Account
                                         Accounts                                     Balance                          of Balance
                                                      Accounts        Accounts                         Balance
                                                                    38.4%                                             34.8%
                                                                    29.7%                                             15.8%
                                                                    43.9%                                             31.3%
                                                                    49.4%                                             44.7%
                                                                    42.2%                                             21.9%
                                                                    46.8%                                             27.5%
                                                                    41.5%                                             27.4%
                                                                    43.0%                                             43.6%
                                                                    22.6%                                             16.5%
                                                                    43.5%                                             37.4%
                                                                    32.3%                                             24.6%
                                                                    41.0%                                             27.0%
                                                                    23.9%                                             23.9%
                                                                    41.7%                                             35.5%
                                                                    31.3%                                             22.7%
                                                                    37.9%                                             31.9%
                                                                    34.0%                                             17.6%
                                                                    38.9%                                             25.6%
                                                                    31.6%                                             26.1%
                                                                    35.1%                                             34.1%
                                                                    39.8%                                             21.5%
                                                                    32.2%                                             40.0%
                                                                    34.2%                                             14.2%
                                                                    19.0%                                             38.6%
                                                                    27.2%                                             13.2%
                                                                    36.3%                                             20.4%
                                                                    22.6%                                             14.5%
                                                                    21.0%                                             27.9%
                                                                    37.8%                                             33.8%
                                                                    24.9%                                             13.4%
                                                                    29.8%                                             17.9%
                                                                    37.9%                                             28.1%
                                                                    36.3%                                             13.8%
                                                                    18.2%                                             9.7%
                                                                    25.6%                                             13.9%
                                                                    16.8%                                             9.2%
                                                                    41.2%                                             31.8%

   28
        We contacted the districts marked with asterisks to determine the causes for the inactive account balances.
   29
        We did not include accounts with zero balances.




                                                               20
         Express Mail Guarantees                                                       FF-AR-11-004



                                              Number of    Percentage              Inactive
                                     Total                                Total                Percentage
    Area              District                 Inactive    of Inactive             Account
                                   Accounts                              Balance               of Balance
                                              Accounts      Accounts               Balance
                                                          34.0%                               13.2%
                                                          59.2%                               53.5%
                                                          20.0%                               20.7%
                                                          36.7%                               22.8%
                                                          23.3%                               33.6%
                                                          57.4%                               51.1%
                                                          28.3%                               5.4%
                                                          12.8%                               12.1%
                                                          7.3%                                4.0%
                                                          41.5%                               22.8%
                                                          19.4%                               10.9%
                                                          33.6%                               65.5%
                                                          15.5%                               9.7%
                                                          22.6%                               7.8%
                                                          51.1%                               33.5%
                                                          20.7%                               10.9%
                                                          12.3%                               13.6%
                                                          23.9%                               7.7%
                                                          22.9%                               15.3%
                                                          28.9%                               12.5%
                                                          54.5%                               22.5%
                                                          9.1%                                3.0%
                                                          8.5%                                5.7%
                                                          12.0%                               7.7%
                                                          18.8%                               10.0%
                                                          6.3%                                4.0%
                                                          13.3%                               4.1%
                                                          26.0%                               3.2%
                                                          8.1%                                9.7%
                                                          8.5%                                4.7%
                                                          10.9%                               3.5%
                                                          22.4%                               10.3%
                                                          9.3%                                4.4%
                                                          6.5%                                2.3%
                                                          42.9%                               9.9%
                                                          1.4%                                0.4%
                                                          0.0%                                0.0%
 Total                                                              %
Source: EMRS




                                                    21
Express Mail Guarantees                                   FF-AR-11-004



                      APPENDIX E: MANAGEMENT’S COMMENTS




                                     22
Express Mail Guarantees        FF-AR-11-004




                          23
Express Mail Guarantees        FF-AR-11-004




                          24
Express Mail Guarantees        FF-AR-11-004




                          25
Express Mail Guarantees        FF-AR-11-004




                          26
Express Mail Guarantees        FF-AR-11-004




                          27
